   Office of Inspector General
        Audit Report

THE SUCCESS OF FAA’S LONG-TERM PLAN FOR
  AIR TRAFFIC FACILITY REALIGNMENTS AND
 CONSOLIDATIONS DEPENDS ON ADDRESSING
KEY TECHNICAL, FINANCIAL, AND WORKFORCE
               CHALLENGES
         Federal Aviation Administration

          Report Number: AV-2012-151
           Date Issued: July 17, 2012
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: The Success of FAA’s Long-Term Plan                                      Date:    July 17, 2012
           for Air Traffic Facility Realignments and
           Consolidations Depends on Addressing Key
           Technical, Financial, and Workforce Challenges
           Report No. AV-2012-151

  From:    Jeffrey B. Guzzetti                                                           Reply to
                                                                                         Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) currently maintains 561 manned air
           traffic control (ATC) facilities, many of which are outdated and deteriorating. The
           average age for an en-route center is 49 years, while the average age of a terminal
           radar approach control facility (TRACON) is 28 years. 1 This aging infrastructure,
           along with FAA’s work to develop the Next Generation Air Transportation
           System (NextGen), 2 has prompted the Agency to consider large-scale
           realignments and consolidations of its air traffic facilities. In September 2010,
           FAA established the NextGen Future Facilities Special Program Management
           Office (SPMO) to develop plans for the transformation of FAA’s air traffic
           facilities.

           Given that FAA is embarking on NextGen, and that the Agency’s vast network of
           aging facilities has become costly to maintain, the Chairmen of the House
           Transportation and Infrastructure Committee and House Subcommittee on
           Aviation requested we review FAA’s current consolidation and realignment plans
           and assess the major cost drivers and technical challenges. Accordingly, we
           (1) evaluated FAA’s plans for realigning and consolidating its air traffic facilities,
           and (2) identified the challenges that accompany these efforts.



           1
               En-route centers guide airplanes flying at high altitudes through large sections of airspace, while TRACONs guide
               aircraft as they approach or leave airspace within 40 miles of an airport.
           2
               NextGen involves a significant overhaul of the National Airspace System (NAS) from a ground-based to a satellite-
               based air traffic management system.
                                                                                                                       2


We conducted our work in accordance with generally accepted Government
auditing standards prescribed by the Comptroller General of the United States.
Exhibit A details our scope and methodology. Exhibit B lists the entities we
visited or contacted.

RESULTS IN BRIEF
FAA recently approved an initial plan to consolidate en-route centers and
TRACONs into large, integrated facilities over the next two decades. This is a
considerable step since our 2008 review when the Agency’s focus was on the
short-term and primarily on sustaining the existing air traffic control system. 3
FAA’s current long-term plan would divide the National Airspace System (NAS)
into six segments and realign and consolidate facilities based on operations,
airspace responsibility, and geographic location. The plan would start with
consolidating 49 facilities in the Northeast, at an estimated cost of $2.3 billion,
beginning with a new integrated facility for managing airspace in the New
York/New Jersey/Philadelphia metropolitan areas. In November 2011, FAA’s
Joint Resources Council (JRC) 4 approved these initial plans, and authorized the
former SPMO to proceed with a final analysis for building the first facility. Yet,
before construction can begin on the first facility, FAA must make several key
operational and logistical decisions, including where to build the facility. Until
FAA makes these decisions, construction of the first facility could be delayed and
could have a cascading effect on FAA’s schedule for consolidating other locations.
Also, FAA has not developed metrics to measure the effectiveness of these
activities, which will be important to determine whether expected cost and
productivity benefits are achieved and to adjust future plans accordingly.
Although FAA’s plans for large-scale realignments and consolidations are still
evolving, the Agency must address key technical, financial, and workforce
challenges to successfully implement the plan. First, FAA will need to align
ongoing construction projects with the current plan since some projects overlap
with the recently-approved consolidation plans, creating the potential for
duplication of effort and waste of funds. Second, FAA will have to make key
technical decisions related to areas such as airspace boundaries and automation
platforms, which will have a significant impact on the costs and schedules of
modernization programs. This will require coordination among FAA’s various
modernization programs, including NextGen, which FAA has begun but not yet
completed. Third, FAA will need to finalize cost estimates for individual

3
    OIG Report No. AV-2009-012, “FAA’s Management and Maintenance of Air Traffic Control Facilities,” December
    15, 2008. OIG correspondence and reports are available on our Web site at http://www.oig.dot.gov/.
4
    The JRC is an FAA executive governance board responsible for the approval and oversight of major systems
    acquisitions. These acquisition and investment review processes are intended to ensure that capital investments fulfill
    mission priorities and that investment decisions mitigate risks, make the bust use of resources, and minimize
    duplication of investment efforts.
                                                                                                                3


integrated facility projects, given that the initial business case only provided
preliminary cost data. Finally, FAA will have to address the wide-ranging impacts
that facility consolidations will have on its workforce and affected communities.
While FAA is aware of these challenges, it is incumbent upon the Agency to
mitigate them to the extent possible as its plans for large-scale consolidations
evolve. As past consolidations have shown, not addressing these challenges poses
risks to achieving expected benefits.
We are making recommendations to FAA to better assist the Agency in achieving
a successful facility consolidation plan.

BACKGROUND
FAA operates thousands of manned and unmanned facilities that comprise the
Nation’s ATC system, including 21 en-route centers and 540 TRACONs and air
traffic control towers. Many of these facilities are old, have outlived their useful
life, and cannot take advantage of new technologies. In 2008, we reported that
while the average air traffic facility has an expected useful life of approximately
25 to 30 years, 59 percent of FAA facilities were over 30 years old. During that
audit we observed obvious structural deficiencies and maintenance-related issues,
including water leaks, mold, tower cab window condensation, deterioration due to
poor design, and general disrepair. At that time, FAA had developed processes
focusing only sustaining the existing air traffic control system and had not made
key decisions regarding facility consolidations and NextGen infrastructure needs.

In 2010, FAA conducted an infrastructure analysis that found 83 percent of its
facilities were in either poor or fair condition, and that the infrastructure at some
facilities would not be able to support NextGen and other modernization
initiatives. For example, the New York TRACON, a facility that was built in 1978,
has a control room floor that does not have removable panels to accommodate
wiring for automation systems and other air traffic equipment, limiting FAA’s
ability to install new equipment or expand its operations at that facility.

On September 1, 2010, the FAA Administrator took an important step towards
replacing this aging infrastructure by establishing the NextGen Future Facilities
SPMO. 5 The SPMO was established to plan large-scale facility realignments and
consolidations, develop requirements for the facilities, conduct relevant analyses,
and coordinate these efforts with the Agency’s other modernization programs. In
May 2012, FAA integrated the SPMO into the Air Traffic Organization (ATO)
and reestablished it as the Future Facilities Group. According to FAA, this
organizational realignment is expected to focus the Agency’s efforts and
consolidate management of all air traffic facility modernization, sustainment,
5
    FAA National Policy Order 1110.154, “Establishment of Federal Aviation Administration Next Generation Facilities
    Special Program Management Office,” September 1, 2010.
                                                                                                            4


replacement, and transformation efforts under the leadership of a single
organization.
Our past work has also shown that FAA can make improvements when justifying
consolidations. In June 2010, we found that while FAA had a process to evaluate
the estimated costs and savings for moving the Boise TRACON functions to the
Salt Lake City TRACON, the business case supporting the move was flawed,
lacked transparency, and did not reflect changes in key assumptions or include up-
to-date facility-level information. 6 FAA officials later cancelled the planned
transfer of staff and service from Boise to Salt Lake City.

FAA HAS INITIAL PLANS FOR LARGE-SCALE REALIGNMENTS
AND CONSOLIDATIONS, BUT KEY DECISIONS REMAIN AND
METRICS HAVE NOT BEEN DEVELOPED
FAA has developed an initial plan to realign and consolidate en-route centers and
TRACONs into large, integrated facilities over the next two decades, beginning
with consolidating facilities managing the New York/New Jersey/Philadelphia
airspace. While the JRC approved these initial plans last November, key decisions,
such as where to build the first integrated facility, have yet to be made, and could
impact future consolidation plans. Moreover, though FAA is still in the early
stages of planning, the Agency has not developed metrics to measure whether
expected cost and productivity benefits from large-scale realignments and
consolidations are achieved. Considering that FAA’s large-scale plans span a
period of 20 years in 6 segments, measuring the success of early realignments and
consolidations will be critical so that FAA can determine whether it is achieving
its goals and whether the Agency needs to modify plans and expectations for
future efforts.

FAA Has Initial Approval for Integrating Facilities in the Northeast
FAA has recently approved an initial plan to realign and consolidate en-route
centers and TRACONs into large, integrated facilities over the next two decades.
This long-term plan represents considerable progress since our 2008 review, when
the Agency’s focus was primarily on the short-term and on sustaining the existing
infrastructure. This consolidation and realignment plan would divide the NAS into
six geographic segments within the continuous United States (see figure 1).




6
    OIG Correspondence No. CC-2009-099, “Letter to the Idaho Congressional Delegation Regarding the Review of
    FAA’s Business Case for Moving Terminal Radar Approach Control Services from Boise, Idaho to Salt Lake City,
    Utah,” June 30, 2010.
                                                                                        5


Figure 1. Large-Scale TRACON Consolidations
                                                               Segment 1: Chicago through
                                                               New England, New York,
                                                               Philadelphia
                                                               Segment 2: Baltimore and
                                                               Washington, DC to Atlanta
                                                1              and St. Louis
                      6                                        Segment 3: West Coast from
                                                               California and Oregon to the
      3                                                        Arizona Border
                                                               Segment 4: Southern Atlantic
                                            2                  Region - Eastern Carolinas,
                                                               Georgia and Florida
                                                               Segment 5: Gulf Coast
                                 5                  4          Including Louisiana and
                                                               Texas, Extending Through
                                                               Arkansas
                                                               Segment 6: Midwest and
                                                               Rocky Mountains Extending
                                                               through Washington State

Source: FAA

Within each segment, TRACONs and en-route centers would be combined into
two types of facilities—each of which could house over 1,200 employees—based
on operational requirements, airspace responsibility, and geographic location. The
two types of facilities are:
    Integrated Control Facilities—provide expanded terminal airspace
     functions by combining TRACON operations with some en-route center
     operations; and
    High Altitude Control Facilities (“High Ops”)—control high-altitude
     airspace currently monitored by en-route centers, with some facilities
     monitoring oceanic traffic.
Under the current plan, work on a new                Figure 2. Artist Rendition of an
segment would begin every other year, with                 Integrated Facility
four to five facilities per segment, and all
segments would be completed by 2034.
FAA believes that these integrated facilities
will maximize operations and realize the
benefits of airspace redesigns, eliminate
artificial airspace boundaries caused by the
current air traffic facility network, and
improve internal operations. The Agency
also believes that the new buildings will
reduce the number of facilities requiring
new equipment or upgrades, avoid the cost Source: FAA
of maintaining aging facilities, and facilitate NextGen capabilities. (See figure 2
for an artist’s rendition of an integrated facility.)
                                                                                                                        6


On November 16, 2011, the JRC approved initial plans to move ahead with plans
to realign and consolidate facilities in the Northeast. This segment will consolidate
45 TRACONs and 4 en-route centers stretching from Chicago to New England,
New York, and Philadelphia into 4 integrated facilities (see table 1). The plan,
with an estimated life-cycle cost of $2.3 billion, 7 calls for the four integrated
facilities to be built with operations transferred from the individual TRACONs by
2023.

Table 1. Proposed Northeast Integrated Facilities*
    Proposed Integrated
                                             Current Facilities and Airspace To Be Transferred
         Facility
    Liberty Integrated            • TRACONs within the New York Center’s airspace, including the
    Control Facility                New York and Philadelphia TRACONs
                                  • Airspace at or below 30,000 feet from the New York Center
    Lincoln Integrated            • TRACONs within the Chicago Center’s airspace, including the
    Control Facility                Chicago and Milwaukee TRACONs
                                  • Airspace at or below 30,000 feet from the Chicago Center
    Northeast Integrated          • TRACONs within the Boston Center’s airspace
    Control and High              • Airspace at or below 30,000 feet from the Boston Center.
    Ops Facility                  • The facility will be co-located with operations from the New York
                                    and Boston Centers that control airspace at or above 31,000 feet,
                                    along with oceanic operations.
    Great Lakes                   • TRACONs within the Cleveland Center’s airspace, including the
    Integrated Control              Pittsburgh, Cleveland, and Detroit TRACONs
    and High Ops Facility         • Airspace at or below 30,000 feet from the Cleveland Center.
                                  • The facility will be co-located with operations from the Chicago and
                                    Cleveland Centers that control airspace at or above 31,000 feet.

∗ The names of the facilities are notional, and do not indicate where FAA plans to build these facilities.
  See Exhibit C for a list of TRACONs and en-route centers that could potentially be transferred to each of
  the four integrated facilities. Source: FAA

As part of the initial approval of the overall plan, the JRC also approved plans to
move forward with a final investment analysis for the Liberty facility, which
includes airspace over the New York, New Jersey, and Philadelphia metropolitan
areas. Some FAA and union personnel expressed concerns with starting this effort
in the New York area, citing the complexity of the airspace and the impact to the
NAS if problems arise. FAA officials acknowledge this risk, but stated that the
current New York facilities are in need of extensive maintenance repairs and have
limited room for expansion. They also stated that resolving airspace issues around
New York and in the Northeast has the greatest potential return in operational
efficiencies for the NAS, and that starting in New York will better facilitate FAA’s

7
    This estimate is adjusted for inflation, is calculated over a 40-year life-cycle, and includes costs associated with the
    planning, construction, and equipage of the facilities. It does not include airspace redesign implementation, moving
    personnel via a permanent change of station (PCS), program management, and other indirect costs.
                                                                                     7


implementation of the ongoing New York/New Jersey/Philadelphia airspace
redesign.

Key Decisions Regarding the First Site Have Been Delayed, and the
Agency Has Not Developed Metrics To Measure the Success of Its
First Facility
Key decisions remain before construction of the Liberty Integrated Control
Facility can begin. First, FAA has not yet selected a site for the project, and is still
examining potential sites for the facility. Recently, FAA postponed its decision to
approve construction for the first facility from November 2012 to May 2013. This
is primarily due to delays in selecting a site for the facility and tight funding limits
called for in its recently passed reauthorization. FAA officials noted that the delay
will affect FAA’s schedule for consolidating other locations within the first
segment, though the impact has not yet been determined.

FAA’s decision will involve determining complex operational, logistical, and
workforce aspects of the consolidation, including the following:

   • the facility’s airspace boundaries and total operating positions

   • the size of the building

   • the total number of controllers, technicians, and other employees working
     at the facility

   • the automation and other equipment to be installed

   • transition schedules for existing facilities to move to the new building

   • workforce issues, including any incentives that may be offered to facilitate
     the move

FAA officials stated that plans for future projects could change based on
experiences with the initial locations. These adjustments may include changing the
number and size of integrated facilities built, or constructing two buildings on one
site to account for differences in operations.

Also, FAA has not developed metrics that measure whether expected operational
efficiencies and potential cost savings from future facility realignment and
consolidation efforts are actually achieved. Considering that FAA’s large-scale
plans span a period of 20 years in 6 segments, measuring the success of early
realignments and consolidations will be critical so that FAA can determine
whether it is achieving its goals, and if it needs to modify plans and expectations
for future efforts.
                                                                                                             8


FAA FACES KEY TECHNICAL, FINANCIAL, AND WORKFORCE
CHALLENGES THAT WILL NEED TO BE ADDRESSED TO
SUCCESSFULLY IMPLEMENT THE PLAN
Successfully implementing FAA’s plans for large-scale realignments and
consolidations—and avoiding future risks—will require the Agency to address a
number of technical, financial, and workforce challenges. First, FAA will have to
align current construction projects with the large-scale plan since some projects
overlap with the recently-approved large-scale realignment and consolidation
plans, creating the potential for duplication of effort and waste of funds. Also,
FAA will have to make key decisions related to automation platforms, airspace
redesign, and other technical factors associated with realignments and
consolidations, finalize cost estimates for the projects, and address associated
workforce and community issues.

FAA Will Need To Align Existing Construction Projects With New
Realignment and Consolidation Plans To Prevent Duplication
While FAA continues to develop plans for large-scale consolidations, the Agency
has essentially halted its other realignment and consolidation activities except for
one small TRACON consolidation. 8 FAA does not plan to realign or consolidate
any additional terminal facilities. It has cancelled plans for consolidating the West
Palm Beach TRACON functions into the Miami TRACON and has deferred
previously-approved TRACON consolidations in Michigan, Ohio, and Illinois
until further decisions are made. 9 In addition, FAA has no plans to consolidate any
of its en-route centers, but will focus on sustaining these facilities while it analyzes
future consolidations.

Although further consolidations are on hold, FAA is moving ahead with plans to
maintain or replace its aging facilities. However, FAA has not yet aligned these
construction projects with its large-scale consolidation effort. The ATO’s
Terminal Planning branch 10 maintains a Facility Master Plan that ranks the
condition and needs of over 500 TRACONs and air traffic control towers. Based
on this list, along with Congressionally-directed earmarks, two new TRACONs, in
Cleveland, OH, and Kalamazoo, MI, were approved for construction prior to the
approval of SPMO’s plan. These new facilities overlap with the plan for the
Lincoln and Great Lakes integrated facilities, and may no longer be needed if FAA
decides to consolidate those TRACONs’ functions into larger, integrated facilities.
8
   The Abilene, TX, TRACON functions will be transferred to the Dallas/Ft. Worth TRACON as early as this October,
   but more likely sometime next year.
9
   The planned consolidations included combining the Cleveland, Youngstown, Mansfield, Toledo, Akron, and Toledo,
   OH, TRACON functions to a new TRACON in Cleveland; combining the Muskegon, Lansing, Grand Rapids, and
   Kalamazoo, MI, TRACON functions into a new TRACON in Kalamazoo; and transferring the Champaign, IL
   TRACON functions to the Chicago TRACON.
10
   In May 2012 both the Terminal and En-Route Planning branches were transferred to the ATO’s Technical Services
   branch.
                                                                                                                       9


FAA officials are aware of the potential overlap, and to better synchronize these
efforts, expects to make a decision on whether to consolidate the two TRACONs
into integrated facilities at a later date.

FAA Will Need To Make Key Technical Decisions Regarding
Integrated Facilities That Impact Future Modernization Plans
Realigning and consolidating facilities is a complex, multi-faceted undertaking,
and requires decisions such as what automation and other equipment will be
installed, how airspace boundaries will change when facilities are consolidated,
and when air traffic operations will be transferred to the new facility. FAA’s initial
plans include preliminary decisions and generic information regarding these
technical requirements for the first four planned integrated facilities. For example,
the initial plans propose using En Route Automation Modernization (ERAM) and
Terminal Automation Modernization Replacement (TAMR) as automation
systems, and would consolidate operations from incoming TRACONs into the first
integrated facility over a 6-year period. However, these technical decisions will
not be finalized for the first facility until next spring, and FAA officials noted that
technical aspects for future sites could change based on their experiences with the
first integrated facility.

These decisions will also have wide-ranging impacts on the Agency’s future
modernization plans and budgets, including NextGen. FAA’s modernization plans
were based on the current facility set-up of en-route centers and TRACONs.
Depending on what is decided, the integrated facility plan will require cost and
schedule changes to other modernization programs that already have established
baselines. As shown in the table below, this will include automation efforts such
as ERAM and TAMR, 11 en-route and terminal voice switch programs, and the
Federal Telecommunications Infrastructure (FTI) program. However, the full
extent of the changes will not be known until FAA solidifies its plans for
integrated facilities.




11
     According to FAA officials, they have no plans to build a common automation platform for integrated facilities.
                                                                                              10


Table 2. Key Modernization Programs Impacted by Large-Scale
Consolidations

   Program                                         Description

                  FAA has been developing the $2.1 billion ERAM program to replace and
    ERAM          significantly enhance the existing hardware and software at the 20 FAA Centers
                  that manage high-altitude air traffic. ERAM is FAA’s key platform for NextGen to
                  process flight data across the NAS.
                  The TAMR program is expected to modernize or replace the terminal
                  automation systems (displays and processors) controllers rely on to manage
    TAMR          takeoffs and landings at 158 operational sites. FAA plans to spend over $1
                  billion on modernizing and sustaining terminal automation systems from 2012 to
                  2018.
                  FAA is planning to develop a new voice switch to control data and voice
                  communications paths that support both terminal and en-route operations,
 NAS Voice        along with new NextGen activities (i.e., Unmanned Aircraft Systems). FAA is
System (NVS)      planning to spend approximately $120 million from 2012 to 2016 on NVS
                  development, and finalize cost, schedule, and performance parameters for NVS
                  by August 2012.
                  FTI is a $2.4 billion system through which FAA will route data and information
      FTI
                  for all of the NextGen programs and FAA initiatives. Without FTI, NVS will be
                  unable to complete its mission as a networked backup voice communications
                  system.
Source: OIG, based on FAA data

These decisions will require coordination among FAA’s various modernization
programs from a technical, cost, and schedule standpoint. FAA has begun
coordinating these efforts, and is working to identify the requirements and
interdependencies needed for the first four facilities. This includes coordinating
with program offices responsible for airspace and procedure changes, automation
platforms, traffic flow management, communications, and surveillance, and
developing “Portfolio Level Agreements” (PfLAs) that define the roles,
responsibilities, and critical interdependencies that are needed to support the
transition to integrated facilities. However, these agreements are not expected to
be completed until the final investment decision for the first facility has been made
next year.

FAA Will Need To Finalize Cost Estimates and Funding Sources To
Construct the Four Integrated Facilities
FAA will also have to finalize the estimated costs for constructing, staffing, and
maintaining the first four planned integrated facilities, and will have to determine
how to finance construction of these projects. Gathering and quantifying this
information is critical to provide decision makers with accurate cost information
regarding integrated facilities. FAA’s Acquisition Management System (AMS)
requires the Agency to complete a business case analysis outlining alternatives,
estimated costs, and projected efficiencies for large acquisitions. As shown in the
                                                                                             11


table below, the initial business case estimated that FAA will spend $1.8 billion
from FY 2011 through FY 2017, and a total of $5.3 billion over a 40-year
timeframe, to construct and maintain the four planned facilities (see table 3). This
estimate includes costs for constructing the buildings and equipment acquisition;
airspace redesign implementation, facility modernization and sustainment,
equipment refresh, and other indirect costs; movement of personnel via permanent
change of station (PCS) costs; and the personnel salary and benefit (PC&B) costs
for Agency staff tasked with overseeing the four projects.

Table 3. Initial Cost Estimates for Planned Northeast Facilities
($ in Millions) 12

                    Type of Costs                   FY11–FY17             FY18–Beyond       Total

Facility Construction and Equipment Costs              $1,556.9                $751.2    $2,308.1

Airspace Redesign, Modernization,
                                                         $160.2               $2,424.2   $2,584.4
Sustainment, and Other Indirect Costs

PCS Costs                                                 $35.8                $303.4     $339.1

Program PC&B Costs                                        $29.8                 $42.1      $71.9

Total                                                  $1,782.7               $3,520.8   $5,303.5

Source: OIG, based on FAA data. Figures may not add up due to rounding.

However, the initial business case only provides preliminary cost estimates, and a
more detailed cost and benefit analysis for the first integrated facility will be
completed prior to the investment decision scheduled for May 2013. Also, the
business cases for the other three integrated facilities will be refined as decisions
regarding the final size and configuration of those facilities are made. In addition,
the initial business case does not include key assumptions that will be needed to
fully estimate the projected costs of integrated facilities. For example, the initial
business case is site neutral, and does not consider the cost differences of different
metropolitan areas when calculating projected costs. The initial business case also
assumes that the number of employees will remain the same and that there will not
be a labor cost savings, and it does not fully quantify future productivity and
efficiency enhancements. FAA officials stated that once decisions regarding
individual facility locations are made, this information will be included in future
analyses. However, these officials also stated that future business cases will
continue to assume no reductions in facility staff, and that decisions regarding
future staffing levels will be made based on operations.



12
     This estimate is adjusted for inflation.
                                                                                                                  12


FAA has made improvements to weaknesses we identified with previous business
case analyses. During our review of the Boise TRACON consolidation, we found
that the business case supporting the move was flawed, lacked transparency, and
did not reflect changes in key assumptions or include up-to-date facility-level
information. In response to our concerns, FAA and the National Air Traffic
Controllers Association (NATCA) developed a supplemental questionnaire that
captured facility-level information regarding potential consolidations. The
questionnaire, which was provided to facility management and union
representatives, included questions regarding the current state of buildings and
equipment, potential risks due to natural disasters, backup systems,
telecommunication, and redundancy. Additional questions included housing
market, commuting, education and employment, and local and national political
concerns regarding realignment. However, this information was not verified by
FAA Headquarters officials.

Another challenge is determining how to pay for the projects. While FAA
estimated that $2.3 billion is needed to construct and equip the four integrated
facilities, last year’s Capital Investment Plan (CIP) only provides about $700
million for the projects. In order to complete the projects, another $1.6 billion in
funding is needed, with nearly $1 billion of that by FY 2017 (see table 4). 13 FAA
is considering alternative financing sources and other acquisition strategies to pay
for the projects. This includes partnerships with local and other Government
agencies, public-private partnerships, and using the proposed Federal
infrastructure bank. However, no decisions have been made regarding these
financing options.

Table 4. Funding Estimates for Constructing Northeast Integrated Facilities
($ in Millions, adjusted for inflation)

                                                             FY11–FY17             FY18–Beyond                 Total

Projected Facility Construction and
                                                                 $1,556.9                   $751.2         $2,308.1
Equipage Costs

Previous CIP Funding Levels                                        $557.7                   $144.1            $701.8


Difference                                                         $999.2                   $607.1         $1,606.3

Source: FAA




13
     In its FY 2013 budget request, FAA is requesting $225 million for FY 2012 and $95 million for FY 2013 to plan and
     build the Liberty Integrated Control Facility.
                                                                                     13


FAA Will Need To Address the Impact of Large-Scale Realignments
and Consolidations on Its Workforce, Requiring Collective Bargaining
With Unions
The success of FAA’s plans also depends on addressing significant workforce
issues. Large-scale realignments and consolidations will require the movement of
thousands of employees and their families, and will impact communities gaining
or losing these facilities. FAA is working closely with its bargaining units to gain
consensus regarding these issues.

While NATCA leadership at the national level has stated that it supports the
integrated facility concept, there may be opposition from local facilities. For
example, during our visits to the New York Center and New York TRACON,
FAA and union officials indicated that they would oppose plans to build an
integrated facility outside of Long Island. They stated that many employees are
connected to the area as life residents, have spouses who work in the area, and
would be unlikely to move from the area. In addition, FAA management from the
New York TRACON estimates that approximately 30 percent of its controller
workforce is eligible to retire, and if forced to move to a facility outside of Long
Island, many may opt to retire instead.

Realignments and consolidations also represent a change in working conditions,
and will require collective bargaining with unions, most notably with NATCA. A
myriad of potentially contentious issues will be subject to negotiation, such as pay,
employee bidding, relocation bonuses, training, and moving expenses. For
example, last June the Dayton TRACON’s operations realigned to the Columbus
TRACON, requiring a large number of Dayton controllers to transfer in order to
meet the operational needs of the Columbus TRACON and to prevent overstaffing
of the Dayton Tower. It also required Columbus controllers to certify on Dayton’s
TRACON positions. To accomplish this, in January 2011, FAA and NATCA
signed a memorandum of understanding (MOU) that provided a total of nearly
half a million dollars in incentives for 27 controllers to transfer to other facilities,
along with reimbursements for temporary duty travel and moving expenses.

For upcoming consolidations and realignments, FAA will face challenges in
ensuring that future agreements are cost-effective and do not present opportunities
for waste or abuse. For example, a March 2001 pay rule negotiated with NATCA
provided controllers transferring to the Atlanta Consolidated TRACON with half
of their pay increase when they were selected to transfer and the other half when
they actually transferred to the facility. However, the consolidated facility saw a
94 percent training failure rate from controllers transferring from smaller facilities.
These controllers could not handle the complexity of the traffic or the additional
workload, but due to the negotiated pay rule, they received a significant pay
                                                                                                         14


increase just for transferring to the facility. They ultimately transferred to lower
level facilities, but the rule allowed them to maintain their higher salaries.

FAA Will Need To Address the Economic and Infrastructure Impacts
on Local Communities
Realigning and consolidating air traffic facilities will likely have significant
economic, infrastructure, and lifestyle impacts on local communities gaining and
losing facilities, as it involves moving potentially hundreds of employees across
State lines. To illustrate this point, a 2009 Department of Defense contracted study
examined the impacts the Base Realignment and Closure (BRAC) Commission
activities had on local communities in Maryland. 14 The study found that the
changes, which led to the relocation of thousands of jobs to the State, had a
significant impact on local services and infrastructure, such as increased demands
on local hospitals, police and fire services, and schools. The study also called for
the development of a plan to identify funding sources for school improvements, as
well as developing a plan to address transportation concerns such as increased
traffic on local and State highways.

These impacts may result in challenges or potential roadblocks to FAA’s
consolidation and realignment efforts that will need to be addressed. As FAA is
aware with past consolidations, communities losing their facilities have taken
steps to delay or prevent the moves, often based on information obtained from
impacted employees and local officials. For example, during the Palm Springs to
Southern California TRACON consolidation in 2007, local communities
expressed concerns with the ability of the Southern California TRACON to absorb
an additional 220,000 air traffic operations, including controlling aircraft in
mountainous terrain and complex airspace. These communities also expressed
concerns regarding the adequacy of staffing levels at the facility to accommodate
the additional workload. As a result, the consolidation was delayed by 1 month as
local representatives raised these issues with FAA. Similarly, local communities
expressed concerns about the planned consolidation between West Palm Beach
TRACON and a new facility in Miami, FL. Specifically, the community was
concerned that combining the facilities might limit the ability to bring in relief
supplies to south Florida, an area that is vulnerable to hurricanes. After further
internal evaluation, FAA decided against combining the facility with Miami.

Past Consolidations Underscore the Risk Posed By Not Addressing
Key Technical, Financial, and Workforce Challenges
Addressing the technical, financial, and workforce challenges we have outlined
will be critical to the success of FAA’s overall efforts. The importance of

14
     “APG Regional Workforce Analysis: Chesapeake Security & Security Corridor,” New Economies Strategies and
     AKRF, Final Report, December 2009.
                                                                                                             15


addressing these challenges is underscored by the fact that previous large-scale
TRACON consolidations did not realize the financial and operational benefits
FAA expected.
Consolidating air traffic facilities and operations is not new for FAA, and has been
the Agency’s policy for decades. FAA’s last major consolidation efforts occurred
in the 1990s, when the Agency built a series of consolidated TRACONs in major
metropolitan areas to consolidate and improve air traffic operations (see table 5).
Recently, FAA has focused on single TRACON consolidations where the
operations of a smaller TRACON were transferred to a larger TRACON. The most
recent small consolidation occurred last June, when the operations of the Dayton,
OH, TRACON were transferred to Columbus, OH.
Table 5. Previous Large-Scale TRACON Consolidations
                                               Date Facility
                  Facility                                                  TRACONs Transferred
                                              Commissioned
Southern California TRACON                          1995               Los Angeles, Coast, Burbank,
                                                                    Ontario, San Diego, and Palm Springs
Peachtree TRACON (Atlanta)                          2001                Atlanta, Macon, and Columbus
Potomac TRACON                                      2002                Dulles, National, Baltimore-
(Baltimore-Washington DC)                                            Washington International, Richmond,
                                                                             and Andrews AFB
Northern California TRACON                          2002                Bay Area, Monterey, Stockton,
                                                                           Sacramento, and Reno
Boston TRACON                                       2004                    Boston and Manchester

Source: FAA

In 2004, FAA completed a study that compared the projected costs, schedules, and
operational efficiencies of the Atlanta, Northern California, and Potomac
Consolidated TRACONs against the actual results. 15 The study, along with our
interviews with facility personnel, showed that (1) the costs of these
consolidations were higher than originally estimated, (2) facilities were delayed in
opening, and (3) operational efficiencies were not achieved (see table 6).




15
     “Evaluation of Large Terminal Radar Approach Control Facilities Consolidation Benefits;” Report No. 2003-23;
     Original Report Date December 31, 2003; Revised April 2004.
                                                                                                   16


 Table 6. Cost Increases, Schedule Delays, and Other Impacts of Past Large-
 Scale Consolidation Efforts
Consolidated      Cost Increases             Schedule                      Other Impacts
  Facility                                    Delays
  Atlanta       Operations and           9 months due to      Operational efficiencies were not
Consolidated    maintenance costs        the unavailability   achieved due to controllers transferred
 TRACON         were 53 percent          of the Standard      from smaller facilities being unable to
                higher than              Terminal             certify at the facility, and because of a
                estimated, mostly        Automation           decision to change the configuration of
                due to negotiated        Replacement          a proposed runway at Atlanta Hartsfield
                controller pay           System (STARS)       Airport, delayed the runway’s
                increases.                                    completion and invalidating user benefit
                                                              assumptions made during the original
                                                              cost-benefit analysis.
  Northern      Construction costs       22 months due to     Due to the delay in opening the
 California     were 45 percent          the unavailability   TRACON, controllers received their
Consolidated    higher than originally   of STARS and         negotiated pay increase well before
 TRACON         estimated. ATC           two budget cuts      actually transferring to the new site, and
                staffing costs were      during               caused FAA to incur close to $400,000
                28 percent higher        construction of      in reverse commute costs for six
                due to controller pay    the project.         controllers who transferred to the new
                increases.                                    TRACON early and had to commute
                                                              back to their old facility to work.
 Potomac        Construction and         7 months due to      While the consolidation resulted in
 TRACON         equipage costs were      the inclusion of     improved operational coordination
(Baltimore-     46 percent higher        the Richmond         within the facility, it did not result in
Washington      than estimated, due      TRACON,              extensive airspace redesign, staff
   DC)          to the subsequent        requiring an         reductions, or equalizing of work
                inclusion of the         increase to the      between operating sectors. Facility
                Richmond TRACON          size of the          management noted a loss of about 25
                into the new facility    building, and the    percent of the originally anticipated user
                and a change in          unavailability of    benefits. The consolidation also
                automation systems.      STARS.               resulted in controllers monitoring the
                Staffing costs were                           Richmond-area airspace, a slower and
                24 percent above                              less complex sector, earning the same
                budget.                                       pay as controllers monitoring busier,
                                                              more complex airspace.

 Source: OIG, based on FAA data

 As FAA’s prior efforts have shown, FAA’s consolidation efforts are at risk of not
 producing the desired outcomes. This is in part because, in the past, FAA fell
 victim to many of the same workforce, technical, and other challenges we
 emphasized above. With FAA’s new large-scale consolidation plans, FAA has a
 unique opportunity to proactively prevent some of the problems that it experienced
 in the past by addressing some of its biggest challenges early on in the planning
 process.
                                                                                   17


CONCLUSION
FAA’s efforts to modernize the NAS are critical for meeting the anticipated
demand for air travel. The extent to which FAA realigns and consolidates the
Nation’s air traffic control facilities will be an important—and complex—
component of these efforts. FAA’s plans for large-scale integrated facilities
represent significant steps on the path to achieving greater operational efficiencies.
However, successfully implementing this plan will require the Agency to address
significant challenges and make difficult decisions regarding the cost, schedule,
and technical capabilities required for the effort. As FAA’s plan evolves,
addressing these issues early, including learning from the experiences of prior
consolidation efforts, will better position the Agency to achieve airspace and
operational efficiencies, potential cost savings, or more importantly, the benefits
from NextGen.

RECOMMENDATIONS
To assist FAA in achieving a successful facility consolidation plan, we
recommend that FAA:
1. Develop a process to regularly update stakeholders regarding decisions
   associated with large-scale facility realignments and consolidations, including
   decisions regarding where the first facility will be built.

2. Develop metrics that quantify the expected operational and cost efficiencies
   from future realignments and consolidations. At a minimum, these metrics
   should provide baseline data that can be used to measure whether these
   efficiencies are being achieved, and allow the Agency to adjust future plans
   and expected efficiencies in a timely manner as it moves forward with future
   realignments and consolidations.

3. Complete internal agreements between the Future Facilities Group, NextGen,
   and other ATO organizations to coordinate its large-scale realignments and
   consolidations efforts with other NextGen and modernization programs.

4. Develop comprehensive and regularly updated cost estimates that include, at a
   minimum, estimates for construction, equipment, increased salaries, relocation
   expenses, and training.

5. Further assess the cost, technical, operational, and workforce risks associated
   with individual realignments and consolidations, and develop risk mitigation
   plans for them.
                                                                                 18


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on May 10, 2012, and received its formal
response on June 15, 2012. FAA’s response is included in its entirety as an
appendix to this report. FAA concurred with all five of our recommendations and
proposed appropriate action plans. Based on FAA’s response, we believe the
Agency met the intent of all five recommendations, which will remain open
pending completion of the planned actions. However, we are requesting that FAA
provide target completion dates for recommendations 4 and 5.
For recommendation 4, FAA stated that it has developed lifecycle program cost
estimates, and is also refining the data to develop more accurate construction and
equipment, personnel, and training costs. However, continued revision and
refinement of cost estimates are critical for a long-term effort of this magnitude,
especially given that the final investment decision for the first Integrated Control
Facility is scheduled for May 2013. Therefore, we are requesting that the Agency
provide specific target action dates for how often and when the cost information is
expected to be updated.
For recommendation 5, FAA’s proposed actions meet the intent of our
recommendation. However, as our report states, the Agency’s consolidation efforts
are at risk of not producing desired outcomes, and addressing challenges early in
the planning process—to mitigate risk—will position FAA to better manage the
effort and realize the expected benefits. Therefore, to allow us to measure FAA’s
progress, we request that FAA provide our office with target completion dates for
any future risk assessments of its efforts.

Additionally, since we issued our draft report, FAA has restructured its large scale
consolidation planning and oversight office, which is cited in the Agency’s
response. We met with the Air Traffic Organization’s Director of Technical
Operations, Air Traffic Control Facilities, and the Director of Terminal Planning,
who explained the purpose and intent of the reorganization. Accordingly, we have
modified our final report to reflect the organizational changes where applicable.

ACTIONS REQUIRED
FAA’s planned actions for all five recommendations are responsive, and its target
action dates for recommendations 1, 2, and 3 are appropriate. However, in
accordance with DOT Order 8001.C, we request that FAA provide our office,
within 30 days of this report, with target action dates for recommendations 4 and
5. All five recommendations will remain open pending receipt of documentary
evidence that appropriate corrective actions are complete.
                                                                               19


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions regarding this report, please contact me at (202)
366-1427, or Barry DeWeese, Program Director, at (415) 744-0420.

                                        #

cc: Pierre McLeod, AAE-100
    Martin Gertel, M-1
                                                                                  20



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit between February 2011 and May 2012 in
accordance with generally accepted Government auditing standards prescribed by
the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. The following scope and
methodology were used in conducting this review.
To determine FAA’s plans for realigning and consolidating its air traffic facilities,
we met with officials from the SPMO and the ATO’s Terminal and En-Route
Planning groups to determine FAA’s near- and long-term realignment and
consolidation efforts, as well as the Agency’s continuing efforts to replace and
modernize its facility infrastructure. We also reviewed the initial business case
provided to the JRC justifying the initial consolidation plan, supporting
documentation for the initial business case, as well as SPMO and other FAA
briefing materials to identify preliminary milestones, projected cost, and the
Agency’s approach for implementing its large-scale realignment and consolidation
plans.
To determine the challenges involved with realigning and consolidating air traffic
facilities, we reviewed draft intra-Agency agreements and technical documents
supporting the initial business case. We also met with FAA officials to determine
the technical interdependencies needed for the SPMO’s plan to be successful, and
its impact on FAA’s other modernization efforts. Also, we reviewed the initial
business case and its underlying assumptions to determine the completeness of the
cost and funding estimates for the first segment and the assumptions used in the
business case, and we discussed these aspects with SPMO officials. In addition, to
determine the lessons learned from previous realignments and consolidations, we
interviewed FAA, NATCA, and PASS National officials at the national level and
at 15 air traffic facilities that had either gone through a previous consolidation or
are being considered for future realignments and consolidations. We reviewed
collectively-bargained MOUs, pay rules, and other agreements made with
NATCA, and an April 2003 ATO report on three previous large TRACON
consolidations. Finally, we reviewed a December 2009 Department of Defense
study on the impacts of previous BRAC realignments to illustrate potential
infrastructure and other community issues that realignments and consolidations
may have on local communities.




Exhibit A. Scope and Methodology
                                                                         21


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Headquarters, Washington, DC
•   NextGen Future Facilities Special Program Management Office (SPMO)
•   Air Traffic Organization, Terminal Services, Terminal Planning
•   Air Traffic Organization, Strategy and Performance
•   Air Traffic Organization, En-Route Operations
•   Air Traffic Organization, NextGen and Operations Planning

FAA Facilities (ATCT, TRACON and ARTCC)
• Potomac Consolidated TRACON
• Reno ATCT
• Northern California Consolidated TRACON
• Palm Springs ATCT
• Southern California Consolidated TRACON
• Dayton ATCT
• Columbus TRACON
• Mansfield ATCT/TRACON
• Canton-Akron ATCT/TRACON
• Cleveland TRACON
• New York TRACON
• New York En-Route Center
• Atlanta Consolidated TRACON
• West Palm Beach ATCT/TRACON
• Miami ATCT/TRACON

Industry Groups
• National Air Traffic Controllers Association (NATCA)
• Professional Aviation Safety Specialists (PASS) National
• Aviation Management Associates




Exhibit B. Organizations Visited or Contacted
                                                                                                                 22


EXHIBIT C. PLANNED SEGMENT 1 INTEGRATED FACILITIES*

       Liberty Integrated Control Facility                          Lincoln Integrated Control Facility

Incoming Facilities: New York TRACON,                         Incoming Facilities: Chicago TRACON,
New York En-Route Center (partial),                           Chicago En-Route Center (partial), Milwaukee
Philadelphia TRACON, Allentown TRACON,                        TRACON, Kalamazoo TRACON, Fort Wayne
Wilkes-Barre TRACON, Binghamton                               TRACON, Grand Rapids TRACON,
TRACON, Elmira TRACON, Harrisburg                             Muskegon TRACON, South Bend TRACON,
TRACON, Reading TRACON                                        Waterloo TRACON, Cedar Rapids TRACON,
Radar Positions: 86                                           Champaign TRACON, Quad City TRACON,
Total ATC Positions: 169                                      Madison TRACON, Peoria TRACON,
Certified Controllers: 625                                    Rockford TRACON
Technicians: 156                                              Radar Positions: 99
Management/Other Staff: 57                                    Total ATC Positions: 174
Total FTEs: 838                                               Certified Controllers: 730
                                                              Technicians: 208
                                                              Management/Other Staff: 42
                                                              Total FTEs: 980

    Great Lakes Integrated Control and High                   Northeast Integrated Control and High Ops
                  Ops Facility                                                  Facility

Facilities: Detroit TRACON, Cleveland                         Facilities: Boston TRACON, Boston En-
TRACON, Cleveland En-Route Center                             Route Center (partial), New York En-Route
(partial), Chicago En-Route Center (partial),                 Center (partial), Albany TRACON, Cape
Flint TRACON, Lansing TRACON, Saginaw                         TRACON, Yankee TRACON, Bangor
TRACON, Mansfield TRACON, Toledo                              TRACON, Burlington TRACON, Providence
TRACON, Buffalo TRACON, Akron-Canton                          TRACON, Portland TRACON, Syracuse
TRACON, Clarksburg TRACON, Erie                               TRACON
TRACON, Rochester TRACON, Youngstown                          Radar Positions: 88
TRACON, Pittsburgh TRACON                                     Total ATC Positions: 201
Radar Positions: 123                                          Certified Controllers: 716
Total ATC Positions: 241                                      Technicians: 244
Certified Controllers: 920                                    Management/Other Staff: 67
Technicians: 224                                              Total FTEs: 1,027
Management/Other Staff: 139
Total FTEs: 1,283
∗     The names of the facilities are notional, and do not indicate where FAA plans to build these facilities.




Exhibit C. Planned Segment 1 Integrated Facilities
                                                                     23


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                     Title____________________

Barry DeWeese                            Program Director

Frank Danielski                          Project Manager

Craig Owens                              Senior Analyst

Andrew Sourlis                           Analyst

Wayne Van De Walker                      Auditor

Audre Azuolas                            Writer/Editor




Exhibit D. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                     24




                    Federal Aviation
                    Administration

Memorandum
Date:      June 15, 2012
To:         Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and
            Special Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:    FAA Response to OIG Draft report Air Traffic Facility Realignments and
            Consolidations


Managing an infrastructure as vast and complex as the Nation’s air traffic control system
requires constant focus on technology, methodology and physical facilities. FAA
recognizes that the implementation of the Next Generation Air Transportation System
(NextGen) set of technologies offers an important opportunity to reexamine its physical
plant in terms of the nature and distribution of air traffic control facilities and its overall
approach to air traffic management. We appreciate the Office of Inspector General (OIG)
recognition of FAA’s familiarity with the challenges involved and its constructive
approach, which further validates FAA’s efforts to achieve greater operational
efficiencies leading to cost savings.

FAA continues to focus on improving and consolidating its air traffic facilities, though its
approach has changed somewhat since the issuance of the draft report. Specifically, the
NextGen Facilities Special Program Management Office (SPMO) has been integrated
into the Air Traffic Organization (ATO), and reestablished as the Future Facilities
Program. This organizational realignment more clearly focuses FAA’s efforts and
consolidates management of all air traffic facility modernization, sustainment,
replacement, and transformation efforts under the leadership of a single organization.

Planning for the first Integrated Control Facility (ICF) – the ICF servicing New York
area—is currently underway. FAA is working with all stakeholders, external and
internal, to gain the fullest possible participation and complete the project successfully.




Appendix. Agency Comments
                                                                                         25


RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a process to regularly update stakeholders regarding
decisions associated with large-scale facility realignments and consolidations, including
decisions regarding where the first facility will be built.

FAA Response: Concur. FAA’s air traffic control facility realignments and
consolidations will impact hundreds of employees and multiple communities.
Communicating with these stakeholder groups will be crucial in order to develop support
for facility realignment and consolidation decisions. The FAA has identified key internal
and external stakeholders (e.g. employees, communities, industry groups, Congress) and
is planning to regularly update these stakeholders on FAA’s deliberations and progress.
FAA recognizes the importance of communicating key benefits of these actions, helping
employees understand why the changes are occurring and addressing questions and
concerns of all stakeholder groups.

The communications plan for the facility realignment and consolidation effort is being
drafted, and will be finalized once a Final Investment Decision (FID) is made for the first
facilities transformation project (the ICF servicing New York), which is expected by May
31, 2013.

Recommendation 2: Develop metrics that quantify the expected operational and cost
efficiencies from future realignments and consolidations. At a minimum, these metrics
should provide baseline data that can be used to measure whether these efficiencies are
being achieved, and allow the Agency to adjust future plans and expected efficiencies in
a timely manner as it moves forward with future realignments and consolidations.

FAA Response 2: Concur. The FAA’s NextGen Future Facilities Program is identifying
operational and cost efficiency metrics that will provide a reliable baseline to measure the
expected improvements following the completion of the planned ICF design for the New
York area. These metrics will provide the basis for developing a cost/benefit analysis
comparing the current facility mix versus a new ICF. Final metrics will be documented
in the program’s Acquisition Program Baseline (APB) and will conform to FAA’s current
Acquisition Management System (AMS) policy. The APB will be part of the ICF
supporting the New York Final Investment Analysis package.

The metrics developed for the ICF servicing New York project will be reviewed and
updated for subsequent large-scale realignments and consolidations, as they are planned,
designed, and implemented. The metrics will be identified in the FID, which is expected
by May 31, 2013.

Recommendation 3: Complete internal agreements between the SPMO, NextGen, and
other ATO organizations to coordinate its large-scale realignments and consolidations
efforts with other NextGen and modernization programs.




Appendix. Agency Comments
                                                                                       26


FAA Response 3: Concur. The NextGen Future Facilities Program is actively pursuing
the establishment of Portfolio-level Agreements (PfLAs) with other critical acquisition
programs across the FAA. The primary goal of these PfLAs is to inform FAA of other
critical acquisition programs, formalize and coordinate the work required to deliver the
first ICF servicing New York, and ensure successful project delivery. The PfLAs will
define the critical dependencies, determine governance structure and authority and
establish the processes to manage programmatic risk. PfLAs will be continuously
developed throughout the process on an as needed basis. The FAA expects to complete
the PfLA for the ICF servicing New York by May 31, 2013. Finally, the integration of
the SPMO into ATO will also help to ensure full coordination and awareness of ICF
requirements with other aspects of modernization.

Recommendation 4: Develop comprehensive and regularly updated cost estimates that
include, at a minimum, estimates for construction, equipment, increased salaries,
relocation expenses, and training.

FAA Response 4: Concur. The FAA developed comprehensive lifecycle program cost
estimates to support its Initial Investment Decision (IID) business case analysis and
budget requests. The FAA gathered and analyzed data, developed methodologies, and
created the cost model to meet the Initial Investment Analysis cost estimating
requirements. These requirements were based on the FAA’s AMS guidelines and GAO
cost estimating guidelines.

Following IID in November 2011, the program has begun a thorough and complete
review and refinement of the cost data, methodologies, and tools. Further refinement of
cost analysis methodologies and development of higher confidence cost estimates are
underway. Specifically, the program is prioritizing construction and equipment costs,
implementation costs including project management and logistics support, as well as
personnel-related costs including compensation and benefits, permanent change of station
and training costs. Methodologies and assumptions are systematically reviewed and
revised based on portfolio member input, ensuring the most accurate and current lifecycle
cost estimate through validation activities. The program recognizes that a high fidelity
estimate is crucial for the program to establish an achievable APB at FID. The APB will
become the basis for programmatic Earned Value Management throughout the
implementation phase. Future project cost estimates will be generated at a higher level of
fidelity as actual costs are incorporated from previous projects, as the realignment and
consolidation effort matures.

Recommendation 5: Further assess the cost, technical, operational, and workforce risks
associated with individual realignments and consolidations, and develop risk mitigations
plans for them.

FAA Response 5: Concur. The business case processes for the individual/ongoing
realignment and consolidation efforts have evolved to be more inclusive of stakeholder
needs. The current business case process for individual realignments and consolidations




Appendix. Agency Comments
                                                                                         27


provides a framework that was developed by FAA to capture the initial cost, technical,
operational, and workforce risks for each effort.

Supplementary questionnaires will be collaboratively developed by FAA and Labor to
capture local management and union concerns – as a component of the future realignment
efforts. The findings from these questionnaires will provide FAA leadership with a
greater understanding of workforce perspective on risks, and the foundation for a targeted
communications and risk mitigation approach. A Transition Management Plan will
provide final risk mitigation strategies and plans, and will include controller training,
staffing, backfill overtime and other considerations.

Additionally, the FAA will respond to the P.L. 112-95 Section 804, “Consolidation and
Realignment of FAA Services and Facilities” requirement to develop a National Facilities
Realignment and Consolidation Report. The plan will communicate the FAA’s long-term
vision for facilities transformation. The plan will be submitted to the Committee on
Transportation and Infrastructure of the House of Representatives and the Committee on
Commerce, Science, and Transportation of the Senate.




Appendix. Agency Comments
